Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Hawaii County Police Department
Hilo, Hawaii

GR-90-03-003


November 2002
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Hawaii County Police Department (HCPD).  The purpose of the grants is to enhance community policing.  The HCPD was awarded a total of $2,693,306 to hire 25 new police officers and redeploy the equivalent of 32.7 existing full-time police officers from administrative duties to community policing.
We reviewed the HCPD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, redeployment tracking, community policing and retention of officer positions.  As a result of the deficiency identified below, we question $32,128 in grant funds received.

The HCPD charged the COPS UHP II grant costs that exceeded the limit established in the Financial Clearance Memo.

This item is discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.